<html>
<title> - THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-1019]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1019
 
 THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2011

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2010

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
56-843                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb8afb09fbcaaacabb7bab3aff1bcb0b2f1">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
                    Beth M. Grossman, Senior Counsel
            Christian J. Beckner, Professional Staff Member
              Jason M. Yanussi, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director of Homeland Security Affairs
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     4
    Senator Akaka................................................    14
    Senator Tester...............................................    15
    Senator Carper...............................................    18
    Senator McCaskill............................................    25
    Senator McCain...............................................    30
Prepared statements:
    Senator Lieberman............................................    33
    Senator Collins..............................................    36

                                WITNESS
                      Wednesday, February 24, 2010

Hon. Janet A. Napolitano, Secretary, U.S. Department of Homeland 
  Security:
    Testimony....................................................     5
    Prepared statement...........................................    39
    Responses to post-hearing questions for the Record...........    58


                         THE HOMELAND SECURITY
                     DEPARTMENT'S BUDGET SUBMISSION
                          FOR FISCAL YEAR 2011

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:41 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Carper, Pryor, 
McCaskill, Tester, Collins, and McCain.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. I thank 
you, Secretary Napolitano, for being here and for your patience 
as we completed a round of votes on the Senate floor. And I 
thank all of you in the room for your patience.
    I thank you for joining us today for our annual hearing on 
the Department of Homeland Security's (DHS) budget--in this 
case for the fiscal year that begins on October 1 of this year, 
which is known as fiscal year 2011.
    In less than a month, the Department of Homeland Security 
will begin its seventh year of operations. I think that any 
fair assessment of its record in those 7 years would be 
positive, including a great number of notable successes, such 
as the recent important role the Department played in stopping 
the terrorist plot of Najibullah Zazi. But, to say the obvious, 
the journey toward a better Department of Homeland Security has 
no single destination. It goes on and on to meet the evolving 
threats and the experiences that we have.
    The budget is a set of numbers, but it is also a set of 
priorities and a vision for the future of the Department. 
Bottom line, it is and should be a statement about this 
Department, about the extent to which the Administration, 
working with us, will press forward to strengthen the 
Department's ability to detect, deter, prepare for, and respond 
to terrorist threats and natural disasters.
    That, in general terms, is what I believe President Obama's 
budget for the Department of Homeland Security for the 2011 
fiscal year does. It proposes in a tough time economically a 
2.7-percent increase in discretionary spending for the 
Department, and in a change that I think is noteworthy, in this 
budget the Administration has reversed its projections in last 
year's budget for a steady decline in departmental funding over 
the next 5 years. This budget now projects an increase in 
Department of Homeland Security funding for the next 5 years.
    I want to add that the extent of the increase is probably 
dependent on a recommendation in the budget which is for 
increasing aviation security fees. Without those fee increases, 
the budget of the Department of Homeland Security in future 
years, I am afraid, will not keep pace with both inflation and 
the threats that we face. For that reason, I want to say to 
you, Madam Secretary, I will support a request to increase 
aviation security fees to benefit the budget of the Department 
of Homeland Security.
    As any budget, this one has pluses and minuses in each of 
our minds. There are parts of it that make me very pleased and 
happy and other parts that are disappointing. I want to start 
with the good news first, which is to say that I appreciate the 
Administration's proposal to add $900 million to key aviation 
security programs, including those that would support more 
whole-body imaging machines and the personnel needed to operate 
them. The failed Christmas Day terrorist attack is the most 
recent evidence justifying this increase, which comes along 
with a recommendation for a boost in the number of Federal Air 
Marshals, behavioral detection experts, and K-9 units. We know 
from painful experience that blowing up airplanes continues to 
be a goal of the terrorists with whom we are at war, so this 
increased recommendation of $900 million certainly increases 
our defenses against attempts to attack us on airplanes.
    I also commend the Administration's efforts in this budget 
to, in various ways, improve the management of the Department 
of Homeland Security. One Department is the goal. A lot of 
different agencies, but one Department really is what we have 
been striving for and are moving closer and closer to.
    In that regard, one example of the commitment of the 
Secretary and the Department to better management is the work 
that is being done now to evaluate the proper balance between 
the Federal workforce and contractor support. The Department 
has what it is calling the Balanced Workforce Initiative, and 
it is a very important initiative. Our Committee has long been 
concerned about the Department of Homeland Security's heavy 
reliance on contractors because that raises a question about 
whether it is the most efficient use of taxpayer money, but 
also the question of who is actually making critical decisions 
at the Department. Is it private contractors? Or is it full-
time Federal employees?
    Thanks to work that the Department has now begun to do 
after many years in which our Committee has asked for some 
estimate of the number of employees that are working on a 
contract basis in the Department of Homeland Security, Madam 
Secretary, you have now presented us with those numbers, and I 
will tell you they are astounding and unsettling because they 
say that the Department of Homeland Security now has just about 
as many contract employees as it has Federal employees--about 
200,000--so the Department effectively, as I understand it, has 
about twice as many employees as the budget employee positions 
show. To me this is a shocking and unacceptable number because 
Federal full-time employees generally actually cost less than 
contract employees, and the law says that inherently Federal 
work should be carried out by full-time Federal employees. So I 
am grateful that the new budget begins to reflect a conversion 
of key positions from contractors to DHS full-time Federal 
employees. Obviously, this is just the beginning of a 
turnaround that is necessary here, and Madam Secretary, I am 
going to have some questions that I would like to ask you about 
that issue this morning at the appropriate time.
    Going on with what I take to be good news in the budget, 
there is also support for significant biosecurity initiatives, 
which have been a priority of this Committee. For instance, the 
President is proposing to double the budget for the Biowatch 
system of biological pathogen detection sensors, which are 
already operating in 30 cities. The new funds will expand 
coverage to more areas and allow deployment of 476 next-
generation detectors.
    I also support the President's request for $53 million for 
the Domestic Nuclear Detection Office to acquire handheld or 
portable radiation detection equipment for Department of 
Homeland Security agencies next year. I am going to include my 
full statement in the record to back up the items that I have 
mentioned.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lieberman appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    Now, what are the disappointments? After years of growing 
budget support for cybersecurity initiatives, this budget cuts 
the spending on cybersecurity by 5 percent, and I want to ask 
you about that because we all know that key information systems 
in the private and public sectors are penetrated every day, and 
our defenses against computer attacks and data theft definitely 
need strengthening and improvement. In fact, as you know, Madam 
Secretary, Senator Collins and I are working on comprehensive 
legislation to strengthen DHS's ability to protect the Nation's 
computer networks.
    I am also concerned that the budget for the Federal 
Emergency Management Agency (FEMA) unfortunately remains 
static, and that the Coast Guard, as responsible as it is for 
so much, is stretched thin in this budget. For instance, a cut 
occurs in the Coast Guard workforce by over 1,100 people when 
the Coast Guard, in my view, actually needs reinforcement, not 
retrenchment.
    The budget also eliminates the grant program that Congress 
created, including Members of this Committee, in the 9/11 Act 
to promote communications interoperability among first 
responders across the country and also eliminates a program to 
prepare communities to handle mass casualties in a disaster. 
Those are the bad news parts of this budget, and I hope you can 
discuss those decisions with us.
    There is also a proposed 22-percent reduction in money for 
fire grants. I think that is a mistake given the 31-percent 
reduction the program suffered in fiscal year 2010.
    So, overall, while I understand that any budget requires 
difficult decisions, particularly one being submitted this 
year, with the economy as stressed as it has been and with our 
Federal budget in the exploding deficit status it is in now, I 
believe the budget of the Department recommended by the 
President will keep DHS moving forward, and hopefully we can 
figure out a way together to do even more than that. I look 
forward to the question-and-answer period and your testimony.
    Chairman Lieberman. Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    As the Chairman has indicated, last year the Administration 
proposed a budget for the Department of Homeland Security that 
actually projected reductions over the next 5 years that would 
have resulted in a total reduction of 4.5 percent.
    But perhaps in response to the attempted Christmas Day 
attack, as well as the numerous homegrown terrorist plots last 
year, the Administration thankfully has reversed course. The 
President's budget request would increase the Department's 
funding for next year by 2.6 percent. While this is a welcome 
change, the overall increase does not tell the full story.
    Almost 20 percent of the proposed increase--some $200 
million--is dedicated to providing security in large 
metropolitan areas in the United States for the trials of 
suspected terrorists now held at Guantanamo Bay. These 
terrorists could be tried on military bases before military 
tribunals, without incurring this unnecessary expense and 
security risk. Given all the demands on the budget, why spend 
hundreds of millions of dollars to move the trials to 
vulnerable locations within the United States when there are 
safer alternatives?
    There are far more urgent needs going unaddressed in the 
DHS budget. For example, as the Chairman has pointed out, the 
President proposes to slash the Coast Guard's funding by $75 
million below last year's level and to reduce the number of 
uniformed personnel by more than 1,100 positions. Keep in mind, 
these are the Coast Guard members who are performing vital 
homeland security duties. Instead of wasting millions of 
taxpayer dollars on civilian trials in large American cities 
for the Guantanamo detainees, that $200 million would be better 
spent on the Coast Guard.
    The Coast Guard took on an expanded homeland security 
mission after the September 11, 2001, attacks. While remaining 
responsible for its traditional missions, including life-saving 
search and rescue operations, the Coast Guard now is also 
responsible for protecting our ports from a wide variety of 
threats, including the potential smuggling of weapons of mass 
destruction. As we look forward, it is clear that the Coast 
Guard's role in homeland security will only become more 
important.
    The extraordinary performance of Coast Guard members in 
response to the earthquake in Haiti, where they were first on 
the scene, stands as the most recent reminder of how much we 
need this vital service. As the Coast Guard Commandant, Admiral 
Allen, noted in his final State of the Coast Guard speech, 
Coast Guard personnel are the ``Federal first responders for 
the Nation.'' We cannot compromise the swiftness and 
flexibility of the Coast Guard, and we cannot afford to cut the 
Coast Guard's funding when we need them now more than ever.
    The homeland security budget also must reflect evolving 
threats, particularly in cyberspace. The Director of National 
Intelligence recently testified that ``malicious cyber activity 
is occurring on an unprecedented scale with extraordinary 
sophistication.'' Our Federal Government, and the Department in 
particular, must greatly expand its capacity to take on this 
threat. Yet, as the Chairman has indicated, the budget for the 
National Cyber Security Division would actually be reduced by 
$19 million next year, a reduction that makes no sense 
whatsoever in the face of the growing cyber threat.
    There are additional troubling cuts in the President's 
budget. Were his budget to be enacted, the Border Patrol would 
be reduced by 181 agents, despite the soaring smuggling of 
drugs, cash, and weapons across our borders. Last year, Senator 
Lieberman, Senator McCain, and I included additional funding in 
the budget resolution for Federal agents and other resources to 
fight smuggling by Mexican drug cartels along the Southwest 
Border. We must build on that investment.
    But there is also a growing problem of smuggling across our 
Northern Border. In December, I met with Maine's Federal judges 
who voiced alarm about the influx of methamphetamine into the 
United States from Canada. I am, therefore, very concerned that 
the number of Border Patrol agents would decrease next year for 
the first time if the Administration's budget is adopted.
    The President's budget could also undermine our State and 
local partners who usually are the first to respond, whether it 
is a natural disaster or a terrorist threat. The proposals to 
deny Northern Border States Operation Stonegarden funding and 
to insufficiently fund the FIRE Act and port security grant 
programs could deprive first responders and local communities 
of the resources needed to secure our Nation.
    On the other side of the ledger, the proposed increases for 
aviation security are welcome, and I agree with the Chairman's 
comments. America was starkly reminded on Christmas Day of the 
vulnerabilities in our aviation security system.
    Our Nation's top intelligence officials recently testified 
that it is ``certain''--that is their word--that al Qaeda is 
planning to attempt another attack against the United States 
within the next 6 months. In the face of this testimony, we 
must ensure that the Department's budget priorities are aligned 
to counter the threat that we face from a determined enemy.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Secretary Napolitano, thank you for being here. It has been 
a pleasure to work with you in the time you have been at the 
head of this Department, and we welcome your testimony now.

   TESTIMONY OF HON. JANET A. NAPOLITANO,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Well, thank you, Chairman Lieberman, 
Senator Collins, and Members of the Committee, for the 
opportunity to discuss President Obama's fiscal year 2011 
budget for the Department of Homeland Security. I want to thank 
the Committee for the strong support you have provided to me 
and to the Department this past year. I enjoy working with you, 
and I look forward to this hearing because I think the dialogue 
we can have on some of the concerns you have raised, and other 
Members of the Committee might have, will be very helpful in 
clarifying what the strategy is in terms of the smart and 
effective use of the taxpayer dollars that we are asking for.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Napolitano appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    President Obama's budget for the Department focuses our 
resources where they can be put to the most efficient and 
effective use in securing the American people. As you have 
noted, the budget request for 2011 provides for an increase in 
discretionary spending over last year's funding. I think it is 
important to focus on our No. 1 priority, the protection of the 
American people, but at the same time, it is our duty to ensure 
that we are exercising strong fiscal discipline and putting our 
resources where they best can be used.
    While this budget will not go into effect until next 
October, I think the events of the past months underscore the 
importance of our investments in our mission and our ongoing 
activities. The attempted attack on Flight 253 on Christmas was 
a powerful illustration that terrorists, specifically al Qaeda, 
will go to great lengths to try to defeat the security measures 
that have been put in place since September 11, 2001.
    This Administration is determined to thwart those plans and 
to disrupt, dismantle, and defeat terrorist networks by 
employing multiple layers of defense in concert with one 
another to secure our country. This is an effort that involves 
not just the Department of Homeland Security, but many other 
Federal agencies with responsibilities related to homeland 
security, and State and local agencies as well.
    As President Obama has also made clear, the Administration 
is determined to find and fix the vulnerabilities in our system 
that allowed the attempted attack on Christmas to occur, and 
the President's budget indeed prioritizes some of those 
security enhancements.
    This Department is also working hand in hand with our 
Federal partners in responding to the devastation and loss of 
life in Haiti following the January 12 earthquake. We were 
able, with the panoply of departments that were assumed within 
DHS, to leverage unprecedented resources and personnel to 
assist with those humanitarian efforts, again demonstrating 
what this Department can accomplish.
    The President's budget strengthens the ongoing work across 
DHS in each of the five mission areas that fall under our broad 
range of responsibilities and our priorities as set forth in 
our Quadrennial Homeland Security Review (QHSR): Preventing 
terrorism and enhancing security, securing and managing our 
borders, smart and effective enforcement of our Nation's 
immigration laws, safeguarding and securing cyberspace, and 
ensuring resilience to any type of disaster. My written 
statement includes more detail on some of these efforts, but 
let me, if I might, give a few.
    First, to prevent terrorism and enhance security, the 
budget enhances multiple layers of aviation security. This is 
an important and critical investment given what we have seen 
this year and what we have been seeing in past years. Part of 
that, of course, is the accelerated deployment of the Advanced 
Imaging Technology (AIT) machines in our Nation's airports. We 
also increase aviation law enforcement in key areas by boosting 
funding for the Federal Air Marshals service, increasing 
coverage on international flights, and providing for more 
explosive detection teams, trained canine teams, and Behavior 
Detection Officers at our domestic airports.
    To secure and manage our borders, the budget request 
strengthens initiatives that have resulted in concrete border 
security successes over the past year. It expands, for example, 
the Border Enforcement Security Task Force models, the BEST 
teams. They have helped us increase our seizures of contraband 
in every major category last year. Utilizing an intelligence-
based approach to the drug cartels was a critical part of our 
successes, and this budget contains monies to hire or to train 
more intelligence analysts, the intelligence then fueling the 
operational aspects of the BEST teams.
    We also have monies in there to protect Customs and Border 
Protection staffing levels at our Northern and Southern 
Borders. Let me pause there because each of you mentioned a 
reduction in Border Patrol personnel of 187 under the 
President's proposed budget, and let me just share with you 
that in our effort to make effective and smart managerial use 
of the dollars that we have, we are not reducing Border Patrol 
at the Southern Border. We are meeting our congressionally 
mandated goals at the Northern Border. We have a staffing plan 
using some attrition rates and some redeployment of agents who 
were performing other duties that enable us to maintain those 
goals. So we would be happy to provide more detail on that for 
you, but while I acknowledge that the summary review of the 
budget would say that is correct, it is, in fact, an incorrect 
assumption. We will be meeting those staffing goals.
    Senator McCain has left, but I want to make a special 
mention about our efforts with Mexico and suggest that in our 
never-ending fight against terrorism and the security of our 
country, the issues with Mexico are quite serious. They demand 
our utmost attention. We have a unique partnership, I believe, 
with the Federal Government of Mexico. I was in Mexico City 
again just last week. We must continue a concerted and 
sustained effort against these cartels.
    Ciudad Juarez, a city of 1.5 million people, is right over 
a bridge from our border, and the rule of law has effectively 
been lost there. The cartels in essence have fingertips into 
communities across the United States, and so you will see in 
different places in the budget, we are very concerned about the 
situation in Mexico, but we are very energized by the efforts 
we are seeing across our Federal Government and across the 
Mexican Federal Government in that regard.
    The Coast Guard budget has been raised as a concern, 
Senator Collins. We can address that further in the questions 
and answers. Let me just say that with the decisions made in 
this tight budget year, the No. 1 priority was to recapitalize 
the Coast Guard. I have been from Kuwait to Charleston on 
vessels of every type. Our men and women of the Coast Guard are 
serving in vessels that are rusty. The metal is falling apart. 
There are holes in some of the vessels. They have been welded 
and welded. At a certain point, you have to build new vessels; 
you have to use new technology. We are in this budget proposing 
the decommissioning of a certain number of vessels, but we are 
also proposing at the same time asset capitalization, including 
the High Endurance Cutter (HEC) No. 5.
    By the way, in terms of personnel, it is actually a net 
decrease of about 783. Part of that, of course, is attributable 
to the crews that will be on the decommissioned older vessels. 
But even as we add on the newer equipment, it is not a one-for-
one trade-off. In other words, the newer vessels are able to 
operate with a smaller crew than the older vessels because of 
the greater use of technology, and we can provide information 
and detail on that. I know it is a keen interest of yours.
    With regard to smart and effective enforcement and 
administration of our Nation's immigration laws, I want to 
mention several things. One is the President has requested $103 
million to strengthen the E-Verify Program. This is a critical 
tool for employer enforcement of our Nation's immigration laws, 
and we ask also for $147 million to continue the expansion of 
the program known as Secure Communities. This is where 
basically we put into local jails and State prisons immigration 
databases and training so that immigration status can be 
checked at booking and prior to release as opposed to what 
happened before, which was, of course, individuals would be 
released and then Immigration and Customs Enforcement (ICE) 
would somehow have to find them and pick them up.
    Let me proceed quickly because I see my time is about up.
    Cyberspace is a key concern. The reduction that you noted 
is, in essence, attributable to several things. One is there 
were some one-time expenses that we had last year that we do 
not need to duplicate in 2011. For example, the data center 
migration and integration that was paid for last year is 
underway, and we do not need to duplicate. We have also 
eliminated some earmarks that were added last year.
    As I said in my earlier remarks, of the five major mission 
areas denoted in the QHSR, we specifically denoted the securing 
of cyberspace, which was the first time, I think, that any 
Quadrennial Review has actually mentioned cyber in such a 
specific way.
    Under resilience to disasters, the President's budget 
request includes an increase in support for the Disaster Relief 
Fund (DRF). It also includes $100 million in pre-disaster 
mitigation grants, and I will be happy to discuss FEMA and the 
fire grants as well.
    Chairman Lieberman. Do not be pushed if there are some 
parts in the remainder of your statement you want to say on the 
record. We are following every word.
    Secretary Napolitano. I will try to do a dramatic reading 
of the budget.
    Chairman Lieberman. Good. [Laughter.]
    Secretary Napolitano. But I think we could have a 
conversation about the grants and what is contained in those 
numbers.
    Last, we are, in essence, building the plane while we are 
flying it where DHS is concerned. It is a massive 
administrative undertaking which is far along but has a ways to 
go. And the mechanism to do that, the administrative 
infrastructure that will enable us over the long term to make 
even smarter, more effective use of our monies, requires some 
investment now. It requires the investment that Congress 
approved last year and accelerated last year for St. 
Elizabeths. It requires the ability to consolidate leases from 
40 to 10 so that we can move people from being spread literally 
in four dozen buildings across this District into 10. Moving 
people does cost money, but over the long term we will save 
those lease costs. But you will see some of those expenditures 
reflected in this budget.
    All I will say there, Senators, is that we are penciling 
every dollar in that area to see what we can do to make sure 
that this Department has a strong administrative 
infrastructure, which, as I suggested, over the long term will 
serve the Nation very well indeed.
    So those, in essence, are a few of the highlights, and I 
tried to again respond to some of the issues that you raised in 
your opening statements in my comments. But I would be happy to 
answer questions and to have a dialogue with you on these and 
other matters.
    Thank you very much again for having me today.
    Chairman Lieberman. Thank you very much, Madam Secretary. 
We will do 7-minute rounds of questioning in this first round.
    I want to go to the $200 million in the Urban Area Security 
Initiative grant program that Senator Collins referred to, 
which is in the budget to provide security in communities 
hosting terror-related trials. One of the parts of my opening 
statement I omitted was to state what I think you know, Madam 
Secretary, which is that I have been strongly opposed to trying 
suspected terrorists in Article III civilian Federal courts. So 
with that background, let me begin with a familiar question you 
were asked in another regard. Were you consulted about homeland 
security risks or costs of providing security for the 9/11 
trials in New York City before the Attorney General made that 
decision?
    Secretary Napolitano. Mr. Chairman, we were not consulted 
before, but we have been part of a process to do cost estimates 
of what the security costs would be after the decision was 
made.
    Chairman Lieberman. And, therefore, am I correct in 
concluding that the $200 million figure is a figure that you 
participated in? In other words, how did you arrive at the $200 
million for the coming fiscal year to provide security for 
terror-related trials?
    Secretary Napolitano. There were personnel from the 
Department who participated in a cross-government effort to 
estimate what the security costs would be, and the $200 million 
figure was derived in part from those estimates. But they are 
estimates, as all budgets are.
    Chairman Lieberman. I believe I am correct that Mayor 
Michael Bloomberg and Commissioner of Police Raymond Kelly in 
New York both said that New York itself would require $200 
million in the coming year if the trials went forward there. So 
is the $200 million that is in this budget just for the terror-
related trials of Khalid Sheikh Mohammed (KSM) and the other 9/
11 accused, or is it more than that?
    Secretary Napolitano. Mr. Chairman, I believe the $200 
million figure was done as a result of the estimate on the KSM 
trial.
    Chairman Lieberman. For New York. In recent weeks or at 
least the last couple of weeks, there have been some statements 
and certainly some rumors that the Administration is 
reconsidering the question of trying Khalid Sheikh Mohammed and 
the other 9/11 conspirators in New York City. Have you been 
brought into those discussions in terms of the homeland 
security implications of that decision?
    Secretary Napolitano. I have not personally participated in 
any discussions in that regard.
    Chairman Lieberman. And there have even been intimations 
that there has been a decision not to go forward with the 
trials in New York City, but I take it from what you have said, 
if that is the case, you have not been informed of that yet.
    Secretary Napolitano. I do not know that such a decision 
has been reached, but, no, I have not personally been involved 
in those discussions.
    Chairman Lieberman. And I presume that if the decision was 
made to take the Khalid Sheikh Mohammed trials out of New York 
City and, for instance, bring him before a military commission 
and do it at the facility at Guantanamo, to put it in the most 
conservative way, it would not cost $200 million?
    Secretary Napolitano. I would think wherever the trial is 
held, Mr. Chairman, that we would want to continue to assess 
what the true costs are.
    Chairman Lieberman. Yes. But probably, if it was held on a 
military base, for instance, it would cost a lot less.
    Secretary Napolitano. Again, I think you would do a 
reassessment.
    Chairman Lieberman. Obviously, my point is that if the 
trial of Khalid Sheikh Mohammed is moved from New York City, 
insofar as our Committee and the Appropriations Committee are 
concerned, that hopefully would mean that there would be $200 
million that could go back into the Urban Area Security 
Initiative grant program for a lot of cities and towns across 
America. But go ahead if you want to respond to that. That is 
my conclusion.
    Secretary Napolitano. Well, let me, if I might, explain 
what we did with the grants overall because I mentioned earlier 
that what we have been trying to do is really look at how we 
make smart and effective use of the dollars we have. And one of 
the things that we heard from governors and mayors is they 
wanted us to streamline, to eliminate redundant grant reports 
and grant applications. They wanted more flexibility in how 
grant monies could be used. And so that is exactly what we did. 
We consolidated a number of grant programs so that States and 
localities could, I think, eliminate, quite frankly, some of 
their grantmaking overhead, certainly some of their reporting 
overhead.
    We also expanded the flexibility of how those monies could 
be utilized. For example, in the past, Federal grant monies 
could not be used to maintain equipment, so every year monies 
would be put in the budget to buy new equipment; whereas, in 
fact, it would be a better decision to maintain the equipment 
that already had been purchased in earlier years. So we 
expanded, to the maximum extent we could under the law, the 
flexibility in the grant programs.
    So when I am asked if that grant program disappeared or 
that program disappeared, well, no. They were consolidated, and 
they were consolidated for a reason.
    Chairman Lieberman. Understood. Let me begin another line 
of questioning, and perhaps others will pick it up or I will in 
a second round, and that is about this report, which I thank 
you for because for the first time we have some hard numbers 
about the number of contract employees of the Department of 
Homeland Security, and the shocking thing to me was that it is 
almost as many and maybe by some counts more than the full-time 
Federal employees. My guess is we would find this in other 
departments. I do not know whether the balance would be the 
same, but anyway, I applaud you for this Balanced Workforce 
Initiative that you have started.
    Can I assume that you had the same reaction Senator Collins 
and I did, which was the fact that there were 200,000 people 
working under contracts for the Department of Homeland Security 
in addition to the almost 200,000 full-time Federal employees 
really was a shocking number.
    Secretary Napolitano. It is a high number.
    Chairman Lieberman. Yes. Would you say that it is too high 
from what you know at this point?
    Secretary Napolitano. I think the number illustrates a 
problem or an issue that we have to work through. The 
Department was stood up quickly, and in order to accomplish the 
many missions that it has, getting contractors was a mechanism 
to be used. We are, as you know, working on an initiative to 
reduce that ratio. Indeed, our chief human resources officer is 
meeting with John Berry, the Director of the Office of 
Personnel Management (OPM), today about how we speed that up. 
And in the cyber area, we have already received direct-hire 
authority for up to 1,000 cybersecurity individuals over the 
next 3 years.
    Chairman Lieberman. Good.
    Secretary Napolitano. One of the real problems we have 
across the government is the length of time it takes to hire a 
Federal employee, the on-boarding time. It is way too long, and 
I think it is because a number of things have been added to 
that process over time. It is overlong, it is too costly, and 
it means that not only at DHS but at other departments, you 
receive these kinds of numbers.
    I know that OPM is working on an initiative, the White 
House is working on an initiative to see what we need to do to 
really dramatically reduce the time it takes, not just to 
identify somebody that you want to hire but to actually get him 
on board and working.
    Chairman Lieberman. Yes, I could not agree more, and if 
there is anything we can do legislatively to support that 
effort, we would be happy to do so. But the numbers here are 
astounding, and obviously, if you have a short-term need for an 
employee, then it makes sense to do it by contract. But to do 
it by contract for what is really a full-time, long-term 
Federal employee because the current process for hiring 
permanent Federal employees is cumbersome is just not 
acceptable, and we have to work together to stop that and cut 
that down. And I think in the end, you will be more effectively 
in control of the Department and will be saving the taxpayers' 
money.
    Senator Collins.
    Secretary Napolitano. I agree.
    Senator Collins. Thank you, Mr. Chairman.
    Madam Secretary, it is a safe assumption that Congress is 
not going to appropriate $200 million to try Khalid Sheikh 
Mohammed in New York City. It is not going to happen. So 
accepting that assumption, if you would, I want to talk to you 
about your priorities for reallocating that funding.
    You mentioned--and you are absolutely right--that the Coast 
Guard needs recapitalization, but the Coast Guard also needs 
people, and decommissioning five of the Coast Guard's 13 elite 
Maritime Security and Safety Teams (MSST) that protect 
waterfront cities makes absolutely no sense given the threats 
to our ports. It does not make sense--even if the net reduction 
is 773, that is still enormous--to proceed to reduce the 
uniformed personnel who are the ones who do port security, who 
conduct search and rescue missions, by more than 1,100 people.
    So, accepting my assumption that there is no way that 
Congress is going to appropriate $200 million to try Khalid 
Sheikh Mohammed in civilian court in New York City, and you 
are, therefore, going to have some significant funds to 
redeploy, would restoring funding for the Coast Guard rank high 
on your priority list?
    Secretary Napolitano. Senator, that is a difficult 
question. We obviously believe and the President believes that 
in fiscal year 2011, we are going to have terrorist trials in 
the United States, and there will be security costs that 
accompany those trials. Those security costs need to be 
estimated in some place in the Federal budget. They have been 
estimated and placed in the DHS budget.
    As I acknowledged to Chairman Lieberman, if the trials are 
moved from New York City, nonetheless, there will be costs 
associated with those trials.
    So I must set aside the presumption. I will say, however, 
Senator, that we have worked with the Coast Guard, with the 
Commandant, very carefully on looking at how we in this 
restrained budget era make sure that we are focused on the 
recapitalization issue in the appropriate way. And as I said in 
my opening statement, the majority of the reductions are 
associated with some of the decommissioning.
    May I speak to the regional MSST teams?
    Senator Collins. Could I just clarify a point first? That 
is, it was my understanding in response to the Chairman that 
you said that the $200 million was just for the trials in New 
York City. Is that not correct?
    Secretary Napolitano. I said that was an estimate based on 
the assumption of the trials there. But wherever the trials are 
held, one can assume there will be attendant costs.
    Senator Collins. There will be costs, but there will not be 
$200 million worth of costs, which is the estimate for New York 
City alone. So I think it is evident that you are going to have 
at least half that amount of money and perhaps much more 
available. And I would urge you to take a look at the Coast 
Guard. The Coast Guard has been the premier agency time and 
time again, whether it is responding to Hurricane Katrina or 
Haiti, and we will seriously undermine the ability of the Coast 
Guard to perform both its traditional missions as well as its 
homeland security missions if these cuts go forth.
    I cannot believe you really want these cuts for the Coast 
Guard. I know how highly you think of the Coast Guard.
    Secretary Napolitano. Senator, I think the Coast Guard is 
one of the most underappreciated assets of this country. They 
were first to Haiti. We know what they did in Hurricane 
Katrina. But they perform duties not only around the coasts of 
the United States but, indeed, around the world. So you will 
have no argument from me there.
    But if we are in a restrained budget environment, do we 
keep going where we are going or do we cut some personnel in 
order to pay for, for example, HEC No. 5, and that was the 
decision made in conjunction with the Commandant.
    Senator Collins. This Committee worked very closely with 
the Department's Inspector General (IG) in the wake of 
Hurricane Katrina, and working with the Inspector General, we 
were able to identify nearly $1 billion in wasteful and 
fraudulent spending, which is clearly unacceptable. The 
Inspector General has told us that the budget that you are 
presenting would ``significantly inhibit'' his ability to carry 
out the operations of his office and to lead the fight on 
waste, fraud, and abuse.
    Under a new law that this Committee authored, the comments 
of the IG are supposed to be submitted as part of the budget. 
In this case, apparently there was a timing issue with the 
Office of Management and Budget (OMB), and the comments were 
not submitted. But the Inspector General has expressed concern 
to us.
    Judging from the reaction on your face, it looks like you 
may not be familiar with this.
    Secretary Napolitano. Well, I am very familiar with the 
IG's budget request in 2011, and I can address that. I have not 
seen his comments. But let me, if I might, Senator, simply say 
that the request for fiscal year 2011 is basically a flat-line 
budget from fiscal year 2010. We did not reduce the budget. We 
did make one adjustment, however. There were some monies 
somehow that were put or used in the IG budget that came, I 
believe, from the DRF.
    Senator Collins. The DRF, correct.
    Secretary Napolitano. And in my view, in terms of honest 
budgeting, that needed to stop. And so we did not move monies 
from the DRF to the IG budget, but their actual budget should 
keep them basically the same level as 2010. And as you know, in 
2010--and I believe in 2009 before I was here--they received 
significant increases.
    Senator Collins. Because they have a significant mandate 
with a big department----
    Secretary Napolitano. Indeed.
    Senator Collins [continuing]. And a lot of programs that 
have been vulnerable.
    Thank you, Mr. Chairman. I have many more questions, but I 
will wait for the second round.
    Chairman Lieberman. Thank you very much, Senator Collins.
    The other Senators on the list, some of whom have left and 
may return, but I will indicate for their information in order 
of arrival: Senators Akaka, McCain, Tester, Carper, Pryor. 
Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman, and I 
also want to add my welcome to Secretary Napolitano.
    DHS's proposed fiscal year 2011 budget highlights the 
Department's efforts to improve its operations, strengthen its 
management, and put resources where they are needed most. In 
particular, I am pleased that DHS is making it clear that 
investing in its workers is critical to protecting the Nation. 
I have long advocated increasing and improving supervisor and 
leadership training, and I am glad that DHS is making this 
investment.
    I am also pleased that DHS is reducing its dependence on 
contractors, which has been mentioned this morning. By ensuring 
that contractors are not performing inherently governmental 
work, the Department will build its internal capacity, improve 
accountability, and speed its integration.
    Madam Secretary, the Department's budget requests $24 
million to strengthen the capacity and capabilities of the 
Department's acquisition workforce, which includes the 
recruitment and the hiring of 100 additional interns.
    What is your strategy to ensure that there will be veterans 
and a diverse pool of applicants for these positions? And what 
is your long-term plan to ensure that DHS retains these new 
hires?
    Secretary Napolitano. Thank you, Senator Akaka. We have a 
very aggressive plan for diversity and veterans hiring, and it 
is something that I personally feel very strongly about. The 
Department does need more diversity, particularly at the upper 
levels, and so our chief human resources officer is tasked with 
making sure that plan is carried out. And, indeed, our 
supervisors are being evaluated in part on how successful they 
are in reaching out to diversify our workforce and to bring 
veterans on. That is the bringing-on part. And, again, with 
regard to the on-boarding issue, I must say one of the 
surprises I have encountered moving from State to Federal 
executive office is the length of time it takes to bring on an 
employee on the Federal side, and it is slowing down some of 
those very important efforts. But we are working our way 
through it, and we look forward to working with the Congress on 
how we can improve the overall situation.
    In terms of retention, part of retention, of course, is 
having a career path once you are in the Department, and we are 
working, particularly in some of our operational components, to 
improve and clarify and in some places create a real career 
path within the Department. And part of it also involves making 
sure that people are recognized for the work that they do. We 
hold them to high standards. We are quick to criticize. We also 
need to be quick to praise.
    Senator Akaka. Madam Secretary, in 2009, Senator Voinovich 
and I held a hearing on the Federal veterinarian workforce and 
the gaps that could hamper the government's ability to respond 
to dangerous foreign animal disease outbreaks. At our request, 
the Office of Personnel Management, along with DHS and other 
agencies, has been working on fixing these gaps. I was troubled 
to learn that DHS no longer has a Chief Veterinary Officer to 
help address these issues and perform high-level coordination 
with OPM and other agencies.
    How does the DHS plan to coordinate with partners across 
the homeland security enterprise on these issues?
    Secretary Napolitano. Well, Senator, I think there are two 
areas. You are right to designate this, and particularly I can 
imagine for Hawaii, for example, this could be very 
catastrophic in the animal population. Both through our Office 
of Health Affairs and in our Office of Science and Technology, 
we have across those two agencies really tasked the job of 
biological, agricultural, food supply chain integrity, and that 
is where the veterinarian population will fit in. We need to, 
obviously, keep working in this area to make sure we have 
qualified personnel on board.
    Senator Akaka. Madam Secretary, the 2011 budget submission 
shows no increase in funding for the Federal Protection Service 
(FPS), and the Department proposes to remove the FPS staffing 
minimums that Congress put into place to address the severe 
staffing shortage. This concerns me. The Government 
Accountibility Office (GAO) repeatedly has found troubling 
workforce and security problems at FPS.
    In light of these longstanding challenges, please discuss 
how the Department plans to make sure that Federal employees 
and facilities will be sufficiently protected under the 
Department's budget submission.
    Secretary Napolitano. Senator Akaka, this year we did an 
internal review of FPS. One of the things we have done, of 
course, is to move it into the National Protection and Programs 
Directorate (NPPD). I think it is better placed there than 
where it was before. That movement is occurring, and it has 
given us the opportunity to really look at how FPS works, how 
officers are trained, what standards they are held to, do we 
have the right numbers in the right places. And the 2011 budget 
request reflects where our FPS plan stands and what we think we 
need for FPS.
    Senator Akaka. Thank you very much for your responses. 
Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Akaka. Senator 
McCain is not here. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman, and I want to 
thank Secretary Napolitano for being here today to explain the 
budget. I particularly appreciate the words you used in your 
opening statement where you are ``penciling every dollar'' and 
trying to make sure we are getting the biggest bang for the 
buck. Along those lines, also in your opening statement you had 
said that the Southern Border will not receive any reduction in 
personnel, but the Northern Border--and I paraphrase--
congressionally mandated goals with the Northern Border, which 
tells me that the 180 or so patrol members are going to come 
off the Northern Border. Would that be accurate?
    Secretary Napolitano. No, that would not be accurate. The 
congressionally mandated number for the Northern Border is 
above 2,000--2,133 or something. I do not have it, but it is a 
little bit above 2,000. We are on target. We will keep those 
numbers. We will maintain those numbers. We are making that 187 
reduction, as it were, by looking at some other areas of the 
Border Patrol where we can account by way of attrition, by way 
of moving people around. But, Senator, both the Southern Border 
and the Northern Border efforts will be sustained, and the 
congressionally mandated numbers will be met.
    Senator Tester. So what you are saying is that the request 
is for $250 million less, and in this time of budget deficits, 
I am appreciative of that, personally, as long as it is the 
right thing to do. If there is not going to be a reduction of 
Border Patrol agents on the Northern and Southern Borders, 
where are we going to pull them out of?
    Secretary Napolitano. We can show you a staffing plan, but 
part of it is some administrative attrition that we are not 
going to replace. Some of it is reduction in training 
personnel, things of that sort.
    Senator Tester. Which does bring me to actually the real 
point of this. The agency was asked to give a report not later 
than January 15, 2010, as to what your initiatives, staffing, 
funding, assessment of investment initiatives, and those kinds 
of things. When can we anticipate that report? Because that 
report from your perspective and from mine is very critical as 
to knowing which way the agency is going to go and how it is 
going to meet the needs of the Northern and Southern Border 
ports, etc.
    Secretary Napolitano. Senator, let me confess, I do not 
know. Did this Committee request the report?
    Senator Tester. Actually, it was an Appropriations 
Committee request. We can follow up with you on it.
    Secretary Napolitano. We can follow up with you on that. I 
believe that report is available and has been made available, 
so let me double check.
    Senator Tester. That would be great. I want to talk about 
the National Bio and Agro-Defense Facility (NBAF) a little bit, 
one of my concerns, actually. Right now, the President's budget 
does not have any requested funds for NBAF. I have been told by 
my staff that a DHS budget briefing document says that about 
$40 million in unobligated funds will be used for NBAF.
    I guess the first question I would ask is if there is $40 
million in unobligated funds that can be used for NBAF, are 
there any more unobligated funds? If so, how much is in this 
budget?
    Secretary Napolitano. In the DHS budget, I will have to get 
the number for you, but that $40 million will be paired with 
$40 million from the State of Kansas and will allow the process 
to proceed with construction in 2011, pending, of course, 
receiving in August a satisfactory review by the National 
Academy, as required, I think, by an amendment you offered last 
year.
    Senator Tester. That is correct. And you anticipate that 
risk assessment will be done when?
    Secretary Napolitano. My understanding is by August 2010.
    Senator Tester. All right. And so as we move forward--it is 
curious. Can you tell me why there were no funds obligated for 
this? We have been talking about this NBAF since I got here 3 
years ago. Why was it done this way? Why was it zeroed out and 
then you are using unobligated funds for it?
    Secretary Napolitano. You probably need a budgeteer at the 
table, but there are unspent funds and then there were funds--
originally the idea was to use the sale of Plum Island to fund 
the construction of the NBAF. Plum Island has not yet been 
sold, but Kansas has now made a substantial investment. We 
moved unobligated funds in order to match that investment so 
the project can move along.
    Senator Tester. If that risk assessment comes back and it 
does point out that NBAF poses a problem, a significant danger, 
are you willing to reconsider the siting in Kansas?
    Secretary Napolitano. Senator, I do not think that is what 
it is going to come back with because that work was done prior 
to the decision made to move the NBAF and where to locate it. 
But I think new and substantial information, of course, would 
have to be considered.
    Senator Tester. I will continue to express my concern, and 
not because I do not like Kansas. I think Kansas is a great 
State. It is just that building a facility of this nature in 
the middle of Tornado Alley does not compute in my head as a 
production agriculture guy. I just want to make that clear.
    Secretary Napolitano. Understood.
    Senator Tester. Another issue, and then I will turn the 
microphone over. The Montana Department of Commerce has been 
getting information, as well as the University of Montana, on 
Canadian-U.S. border crossings, the number of cars that are 
coming across. They use this data on a semiannual basis to 
develop tourism plans, to develop private sector business plans 
for businesses that depend on tourism in the State of Montana.
    Recently, at least during the last year, late last year, 
they could not get it locally. They could not get it 
regionally. They had to go get that information from some folks 
in Washington, DC. And, in fact, I am not sure that they ever 
could get it.
    What we were told was--and let me see if I can find the 
exact statement. We were told that the senior staff at the 
customs office of field operations has been tasked with 
drafting new rules regarding the release of very simple 
information. On the Northern Border, if I have any complaints--
and there are a few, and you are doing a great job, but there 
are a few--it is with communication. It is communication with 
local law officials. It is communication with highway patrol. 
It is communication with everybody. Because I think the more 
eyes you have on the border, the better off you are. I think we 
get a big bang for the buck for it. I understand there are 
security concerns.
    But this particular issue is once again communications, and 
it looks like the Department is pulling back on information 
that, quite honestly, does not make a hill of beans as far as 
the security of this country. They are pulling back because 
they should. Are there not better things for some of these 
folks to do than that?
    Secretary Napolitano. Senator, that question is making my 
hair go on fire. Yes, we should be sharing that information.
    Senator Tester. Thank you.
    Secretary Napolitano. We will get it out--we will work with 
you on that, and I will check into that.
    I would note, however, the President's nominee to actually 
head Customs and Border Protection (CBP) is still awaiting a 
Committee hearing, and any assistance the Committee can give to 
help us fill that important position would be much appreciated.
    Senator Tester. I agree the unnecessary holds on many 
people are getting on the verge of ridiculous from my 
perspective, so I appreciate your concern over that. And I want 
to thank the Chairman for the opportunity, and I want to thank 
you for your service, Secretary Napolitano. We very much 
appreciate it.
    Secretary Napolitano. Thank you, Senator.
    Chairman Lieberman. Thanks, Senator Tester. You know, I was 
about to run for the fire extinguisher there.
    Secretary Napolitano. Yes, well, it is----
    Chairman Lieberman. I am glad it was a metaphor you were 
using. But I understand your displeasure, and it was 
appropriately stated.
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks very much. What happened to your 
foot?
    Secretary Napolitano. I broke my ankle playing tennis.
    Senator Carper. Did you really? Did you win?
    Secretary Napolitano. I do not think the shot even went in, 
to add insult to injury. [Laughter.]
    Senator Carper. Thanks for coming off the disabled list to 
be here with all of us today, and thank you also for your 
service.
    Do you know whose birthday we are celebrating today? A guy 
who was born--I will not say how many years ago, but he was 
born on February 24, 1942. He actually sits on this panel. Do 
you know who that might be?
    Chairman Lieberman. It is not George Harrison, who also has 
a birthday today.
    Senator Carper. It is our Chairman.
    Secretary Napolitano. Happy birthday, Mr. Chairman.
    Chairman Lieberman. Thank you very much.
    Senator Carper. My wife said to me the other day, Secretary 
Napolitano, that she had seen Senator Lieberman. She said, ``He 
looks better than I have ever seen him look.'' And I said, 
``Senator Lieberman?'' [Laughter.]
    He used to look really good. Actually, he still does. So 
happy birthday, pal.
    Chairman Lieberman. I am just going to sit here and blush. 
Thank you.
    Senator Carper. Very nice of you to join us on this 
birthday.
    On a more serious note, there was some earlier discussion 
on trying terrorists in this country, and it is my 
understanding that we have done a few of those, and I do not 
recall how many. Do you have any idea how many terrorists we 
have actually tried in this country, we have imprisoned in this 
country?
    Secretary Napolitano. Senator, I do not have the numbers 
off the top of my head, but----
    Senator Carper. I understand it is quite a few.
    Secretary Napolitano [continuing]. We have a clear track 
record on doing it. A clear track record of successfully trying 
them here and getting substantial sentences here, and the most 
recent example--not a trial, but the most recent example, of 
course, was Najibullah Zazi, who pled this week. And I 
understand that the plea will have a life sentence.
    Senator Carper. We like to learn from our mistakes. What 
have we learned from the trials of terrorists that we have 
actually held here and the folks we have imprisoned here?
    Secretary Napolitano. Senator, I think that is probably a 
question better addressed to the Attorney General. It is his 
responsibility to make sure that these individuals are brought 
to justice. I will just simply say as a former prosecutor 
myself, both in Federal and State courts, that I am very 
confident in the American system of justice.
    Senator Carper. All right. I have a question I am going to 
submit for the record regarding the Administration's proposal 
on grant programs to aid local firefighters and first 
responders. Others have expressed a concern with that proposal. 
I have, too. So you can look forward to that question, and I 
would appreciate your prompt response.\1\
---------------------------------------------------------------------------
    \1\ The response from Secretary Napolitano appears in the Appendix 
on page 102.
---------------------------------------------------------------------------
    Turning to another subject now, I have always felt that it 
would be hard to make much progress on comprehensive 
immigration reform until the Congress and, frankly, our 
constituents felt that we had done all we could to secure our 
borders. But I have been disappointed that we have not been 
able to effectively control the illegal activity that occurs 
along our borders. I think, in part, that we are doing a better 
job due to your great efforts as a former governor. And I know 
you have been very involved in this. But I think the continued 
failure to do even better can be attributed to what I am told 
is the poor performance on an information technology project 
called the Secure Border Initiative network (SBInet). And I 
understand that the Department that you lead began the overall 
Secure Border Initiative in 2005, and to date, we have spent 
about $3.7 billion. Some of that money has been spent on things 
like fences and barricades. In fact, I was actually down a 
couple of months ago and looked at some of those fences and 
barricades and talked to the folks who work down there.
    But I understand that a significant portion of the 
spending, that $3.7 billion, has gone toward technology, and I 
am told that this investment has not worked out nearly as well 
as we had hoped.
    To the best of your knowledge, why is this investment 
experiencing so much difficulty, so many setbacks? When do you 
expect that the technology will be effectively deployed across 
our southwestern border and maybe along some other stretches of 
our international border?
    Secretary Napolitano. Indeed, and you are right, Senator, 
that border security involves boots on the ground; it involves 
technology; it involves actions also in the interior of the 
United States to reduce demand for illegal labor and illegal 
narcotics.
    With respect to technology, if I might, in the budget 
request, you will see money for what is called SBInet. This was 
a project begun years ago to basically build towers along the 
Southwest Border that would facilitate the ability to detect 
moving individuals, not animals that go back and forth across 
that border but individuals, so that the Border Patrol then 
could go out and pick them up.
    The project had, I think, several major failures, and we 
will in this budget complete the first tranche of it, which is 
in Arizona. First of all, operations was not fully integrated 
in the project design, so it was not really matched with how 
the Border Patrol really works and what actually happens. 
Second, it is a very rough area of the country, and there are 
lots of logistical issues with the kind of project they had in 
mind and the vendor had in mind. Third, there have been in some 
instances environmental and other concerns with building large 
towers all along the border, which have been problematic to the 
individuals who live at the border.
    Every major deadline has not been satisfied, and I am not 
satisfied with SBInet. So what I have done this year is to say 
we will finish Section 1, but before we go across that border 
with these big towers, SBInet, we are going to re-evaluate how 
those technology dollars are used and whether there are other 
technologies perhaps that have been developed since SBInet was 
contracted that would be more mobile, better, easier to 
maintain, and easier to operate.
    So we will complete the first tranche. We will continue to 
invest in things like mobile radar at both the Northern and now 
Southern Borders. We are adding not only BEST teams but also 
more canines and other types of protection at the actual ports 
of entry. But between the ports, I think we need to really look 
this year at what our technology dollars are buying and are we 
better off continuing what was contracted for a number of years 
ago or recalibrating.
    Senator Carper. All right. I think we are all in favor of 
using technology to complement, to supplement the work that is 
being done by boots on the ground. I just want to make sure 
that when we spend that kind of money, it actually works.
    Secretary Napolitano. Right.
    Senator Carper. The second subject--as you know well, our 
government information systems are constantly under attack by 
hackers, criminals, and even other sovereign nations. I believe 
that the Department of Homeland Security plays a role in 
helping to protect other civilian agencies by providing an 
extra layer of defense on their networks through a program 
known as Einstein. However, I understand that most civilian 
agencies are not being monitored by this program despite our 
previous investments and that this year's budget is being 
deferred to fund what have been characterized as higher 
cybersecurity efforts.
    Can you elaborate more on why additional funding for 
Einstein is being deferred despite agencies still not being 
protected? I recall being told a couple of years ago that this 
program was absolutely essential. And, last, could you take a 
minute or so to explain what the Department's higher 
cybersecurity priorities are?
    Secretary Napolitano. Senator, let me be careful in my 
answer here because I do not want to stray into some classified 
issues. I will share with you, as I shared earlier, that what 
looks like a reduction in cybersecurity really is not. It is 
the elimination of some one-time expenditures that we had last 
year and some earmarks. We continue to view cybersecurity as 
one of our top five mission priorities in the homeland security 
enterprise. We have restructured and streamlined how 
cybersecurity is done within the Department. And we have the 
dot.gov and the dot.org and dot.com intersections to work on.
    We are moving forward with different types of detection and 
protection technology, and beyond that I think I should not 
stray in an open setting.
    Senator Carper. I am going to follow up in writing on the 
same question----
    Secretary Napolitano. Please.
    Senator Carper [continuing]. And ask you to respond, 
please. And I will certainly follow up with respect to the 
funding for the firefighters and the first responders. Thanks 
for being here. Thanks for your good work.
    Secretary Napolitano. Thank you.
    Chairman Lieberman. Thank you, Senator Carper, both for 
your astute questioning and your kind words about my birthday.
    I want to come back briefly to the question of the large 
number of employees of the Department that are contract 
employees and just ask you to give us a bit more detail on how 
this Balanced Workforce Initiative is going to go forward 
within the Department. Are you going to look across the 
Department, or are you going to focus on some sections where 
you think there is the most obvious need to convert positions 
from contract to full-time Federal equivalents?
    Secretary Napolitano. There are some areas where it is more 
clear and easier to convert, and there will be some 
prioritization there, Mr. Chairman. But we are asking all of 
our components and directorates to participate in the 
initiative and to identify areas that ought to be part of a 
conversion plan, if not this year, in the out-years.
    Chairman Lieberman. Do you have a sense now of what areas 
of the Department are using contract employees most?
    Secretary Napolitano. I think we can set aside Coast Guard 
and Secret Service.
    Chairman Lieberman. Right.
    Secretary Napolitano. I believe we are using contractors in 
the Transportation Security Administration (TSA), in CBP, and, 
to some degree, in ICE, particularly in the detention area, 
would be one area I would point out.
    Beyond that, Mr. Chairman, I will provide you more specific 
information.
    Chairman Lieberman. I appreciate that. That is important, 
and we look forward to working with you on it.
    I want to focus in on the Secret Service. I have had some 
concern for a while based on a National Security Agency (NSA) 
Blue Team evaluation of the information technology (IT) 
infrastructure at the Secret Service, which said--and it is 
more than a year ago; I do not remember exactly how long ago--
that the NSA found that the Secret Service systems, IT systems, 
were fully functional only 60 percent of the time when they did 
the Blue Team's analysis compared to industry and government 
standards that are around 98 percent generally, and they 
recommended 30 critical reforms.
    According to the supplemental budget document submitted to 
Congress last year and the agency's 5-year plan, the Secret 
Service was expected to receive $187 million in fiscal year 
2011 toward the problems identified with their IT. 
Unfortunately, the budget as submitted by the President cuts 
that down to $69 million, or roughly one-third. I do not know 
whether you have the details on this, but obviously we have 
here a premier law enforcement organization in our country, 
which is responsible for the security of the President, the 
Vice President, and other officials of our government, and they 
have to have better IT than they have.
    Are you familiar with the problem generally? And why did 
the amount of money get cut back from what we thought it would 
be last year?
    Secretary Napolitano. Again, this is an area where we can 
provide you more detail in a non-public setting, Mr. Chairman. 
But part of it is a reassessment of how much IT would actually 
cost and also what can be purchased and what is needed on a 
priority basis.
    Chairman Lieberman. Well, we will keep following that one 
with you because that is a real concern.
    I want to take the occasion of your appearance here to go 
back to something I think you and I have talked about. I guess 
in an earlier day this would have been called a pet peeve of 
mine, but it is the reluctance that I see within the 
Administration generally to use terms like ``Islamist 
extremism'' or ``Muslim terrorists.'' In other words, we are at 
war, and part of the reason why the Department was created, 
obviously, was to defend the security of the American people in 
this war. And the Department has done a great job, and you have 
done a great job in the year you have been there. But it seems 
to me that we have to know our enemy, and my concern about it 
was aroused again in my membership on the Armed Services 
Committee after the Defense Department's internal review of the 
Fort Hood murders where the terms ``radicalization'' and 
``extremism'' were used, but the term ``Islamist extremism'' 
was never used, even though all the record on Major Hasan is 
clear, which is that is what motivated him. And in this case, 
the Department of Homeland Security's Quadrennial Review is a 
very good document, but, again, there are a lot of references 
to terrorism and violent extremism, but there is not a 
reference to Islamist extremism or Muslim terrorism.
    Personally, as you know, I have said this before, I do not 
think we do a favor to Muslim Americans or people who are 
followers of Islam anywhere in the world by not saying that 
this is an extreme expression, a violent expression of one of 
the world's great religions. It is not Islam as most Muslims 
practice it and as most of us who are not a Muslim know it.
    So I know that there are other forms of terrorism that the 
Department has to be concerned about: White supremacist 
extremism or terrorism, animal rights extremism or terrorism, 
and even eco-terrorism. But that is not what we are in the war 
with now and what you spend most of your time defending 
against. So you happen to be here, so I am asking you: Has the 
Administration made a decision to avoid any public reference to 
violent Islamist extremism or Muslim terrorists--which is 
really why they are terrorists. That is what motivates them.
    Secretary Napolitano. No, there has been no such decision. 
The words that you refer to, ``violent Islamist terrorism,'' is 
something that we fight and deal with every day at the 
Department of Homeland Security.
    Chairman Lieberman. Right.
    Secretary Napolitano. There is no doubt about that. It was 
the motivation on December 25, 2009. It was part and parcel of 
the Fort Hood killings and other incidents that we have seen 
this year within the United States.
    Chairman Lieberman. Right.
    Secretary Napolitano. It is part and parcel of why we are 
working internationally to increase aviation security.
    The QHSR is a different type of document, as you know--it 
is an overall vision statement--and we did not specify one type 
of terrorism or another because this Department, as you say, 
has to deal with many forms. But you are correct, there is 
violent Islamist terrorism, be it al-Qaeda in Pakistan, 
Afghanistan, Yemen, or anywhere else that is indeed a major 
focus of this Department and its efforts.
    Chairman Lieberman. Yes, and I guess I appreciate you 
saying that. My point is we should just not hesitate to say 
that. I mean, obviously, as the President and President Bush 
before him have said, we are not at war with Islam. We are at 
war with a particular extremist, violent terrorist expression, 
which is, in my opinion, a corruption, a perversion of Islam. 
And we ought to be willing to say so.
    Secretary Napolitano. Indeed.
    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I want to return to the issue of the budget for 
cybersecurity because I am really concerned about this. Earlier 
this month, we saw Google turn to the National Security Agency 
to determine the nature of the sophisticated attacks that it 
had experienced, which apparently originated in China. But DHS 
is actually supposed to be the focal point for cooperation with 
the private sector.
    We have our Nation's top intelligence official telling us 
that there has been an explosion of cyber attacks both on 
government computers and in the private sector. So when I hear 
that the cyber budget is cut by $19 million, it really concerns 
me, and I want to emphasize that I am still concerned even 
though you have described it as an area where the Department 
has been able to implement certain efficiencies. And to that I 
would say good for you, but that money needs to be reinvested 
to expand our capabilities because this threat is not static. 
When Dennis Blair testified before the Intelligence Committee, 
he listed cybersecurity as a top threat to our country.
    So even if savings permit a more efficient operation within 
DHS, should we not be reinvesting these savings to expand our 
capacity?
    Secretary Napolitano. Senator, first of all, the data 
migration occurred. That was included in the fiscal year 2010 
budget. The National Cybersecurity and Communications 
Integration Center has been opened. Some of the money that was 
in the cyber budget last year was moved to the Federal Law 
Enforcement Training Center because it is being used to train 
more individuals on how to do cyber forensics, which is an 
important part of the process. I think there are a number of 
initiatives that are underway in the cyber area.
    It is difficult where the intersection with the private 
sector is concerned. This is a challenge for us because we do 
not control them, we cannot tell them what to do, etc. But it 
is an area where I think over this next year we are going to 
see a lot of activity because when a company like Google 
basically says, ``Help,'' then you know that it is starting to 
pierce the public's perception that this is an issue.
    Another area that we are working on is improving 
individual, for lack of a better phrase, computer hygiene. 
Anybody that gets on the system is on the system, and we need 
to do a massive public education job in the next year or so 
about every individual's responsibility once they are on the 
system.
    I think that it would be helpful perhaps to provide for you 
a classified briefing on all the cyber activities that are 
underway at the Department and how we are moving forward, if 
you think that would be of assistance.
    Senator Collins. I do, and I would look forward to that. It 
has been some time since we have had that briefing. Your point 
is well taken. When Google is asking for help, you know that 
this is an extraordinarily sophisticated attack. And I worry 
that we are waiting for a cyber 9/11 before taking this as 
seriously as we must. So I look forward to that briefing.
    I want to turn to the Administration's proposal that would 
make only the Southwest Border States eligible for Operation 
Stonegarden funds. This has been an extraordinarily successful, 
collaborative effort in my State of Maine. On the Northern 
Border, obviously, we have far fewer CBP officers than we do on 
the Southwest Border, despite the fact that the Northern Border 
is far longer than the Southwest Border. So you have a 
relatively lean Federal presence on the Northern Border. 
Operation Stonegarden has allowed the cooperation of county, 
State, and local law enforcement to help compensate for that 
lack of presence. And if, in fact, you are going to proceed 
with a reduction or redeployment of Border Patrol agents, it 
makes no sense at all to prohibit that collaboration funded by 
Operation Stonegarden on the Northern Border.
    Let me just cite one example that both Customs and Border 
Protection officials and local officials told me about in 
Maine. There has been a fair amount of smuggling across the 
border of drugs and cash, and it was a Fort Kent, Maine, police 
officer participating in an Operation Stonegarden operation who 
was able to apprehend a suspect far from the confines of the 
town of Fort Kent because that officer was patrolling the area 
and the individual had $137,000 in cash that he was smuggling 
across the border. But for Operation Stonegarden, that Fort 
Kent police officer would not have been in that area near the 
border to apprehend this individual.
    So I would ask you to take another look at the policy 
decision here, particularly if you are proceeding with the plan 
to reduce the overall number of Border Patrol agents. I do not 
agree with that decision, but to do both seems to me to be 
really undermining the border efforts.
    When the Federal judges in Maine asked to meet with me to 
talk about border smuggling of methamphetamine, that was a real 
alarm call. It was a real wake-up call as far as our need to 
redouble our efforts on the Northern Border. So I would ask 
that you take another look at what the combination of the 
policies in this budget would produce.
    Secretary Napolitano. Senator, I am happy to take a look at 
Stonegarden and how it can be deployed at the Northern Border. 
You are right about the methamphetamine issue. We see a lot of 
methamphetamien coming over the border from Canada.
    I must disagree, however, and say once again that we are 
not reducing agents at the Northern or Southern Borders. We are 
doing some restaffing within the interior of the Border Patrol 
that, on a superficial reading of the budget, looks like we are 
reducing 187 agents at the border. We are not.
    Senator Collins. Mr. Chairman, if I could just clarify 
that. I want to submit for the record the Department's own 
budget justification and read to you from it. I am not trying 
to be argumentative, but these figures----
    Secretary Napolitano. I know what you are reading, and I am 
glad you are because I want to correct it right now.
    Senator Collins. Good because it is titled, ``Reduction to 
Border Patrol Premium Pay and Agent Staffing--CBP requests a 
reduction of $31.7 million in premium pay and agent staffing.'' 
And it says, ``It includes a staffing reduction, which 
translates into a decrease of 181 Border Patrol agents in 
fiscal year 2011.''
    That is your language, not ours.
    Secretary Napolitano. Senator, do not assume that 187 
positions in CBP or Border Patrol, writ large, means at the 
Northern and Southern Borders. There are positions all over 
this country. There are positions that are not operational in 
nature. And there are attrition monies that we have that we can 
deploy.
    I can tell you again, we are not reducing the numbers that 
Congress has asked to have at the Northern Border, nor are we 
at the Southern Border.
    Senator Collins. But are you reducing the overall number of 
Border Patrol agents by 181?
    Secretary Napolitano. Are we making more effective and 
smart use of the monies you give to the Border Patrol by 
reducing and reallocating agents so they are actually at the 
border? Yes.
    Senator Collins. I think it is great that you are getting 
people out of headquarters, but I need an answer. Are you 
reducing the overall level by 181 Border Patrol agents?
    Secretary Napolitano. Positions, but not agents at the 
border.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator 
McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you. I apologize. If it is any 
consolation, I was in an Armed Services hearing where we were 
having real fun with Blackwater contractors, so that is why I 
am late.
    We have a problem, and I get it, but it is really a 
problem. And I do not know how we deal with this problem. In a 
county in Missouri, St. Francois County, we have over 11-
percent unemployment. The local sheriff went out on a job site 
for a new hotel in St. Francois County and picked up 13 or 14 
illegal immigrants that were working on the job site, evidently 
making $13 an hour. The sheriff called ICE and said, ``What 
should I do?'' And ICE, of course, told him to let them go.
    Well, you can imagine what kind of furor this is causing in 
this community. One man was quoted in the local paper as 
saying, ``I have lost my job, and I would love to have one of 
these jobs, and it just does not seem fair that nothing 
happens.''
    I understand that what we always try to do with all of the 
government agencies is say we want to give you less, but we 
expect you to do more. And I get that part. But this perception 
problem out there is a real issue that we need to figure out. 
And I know you have spent more time working on this issue than 
probably anybody in this building or any building within 10 
miles of here because of where you come from and the problems 
with illegal immigration in Arizona.
    But what really worried me about it is that nobody followed 
up with the employer. I guarantee you that those guys went back 
to the site and picked up their tools. Well, they did not pick 
up their tools because they thought they were going home. They 
picked up their tools because they were confident they could go 
somewhere else to another employer and get hired on, and that 
is what worries me, that we are not even making an 
investigative attempt to go after the employer when we have a 
situation like this with a local sheriff.
    Secretary Napolitano. May I clarify the record?
    Senator McCaskill. Yes, you may.
    Secretary Napolitano. All right. First of all, there were 
two incidents in Southern Missouri that I am aware of--one was 
in St. Francois County; I think the other one was in Ozark 
County--where sheriffs went out and picked up illegal workers 
and then say that they called ICE and ICE was not there. I have 
talked to the Assistant Secretary of ICE about this situation. 
There is, as you might imagine, a very serious dispute by the 
ICE agents about what they told the sheriffs. And so we have a 
certain ``he said, she said'' aspect to this.
    There is nothing that I think would be more aggravating to 
an American worker who has lost his or her job than to see 
somebody in this country working illegally at a job they could 
have. That is not an acceptable situation, and that is not what 
we are doing with illegal immigration enforcement and at ICE.
    We have had over the last year a massive amount of 
workplace audits. They are called I-9 audits. We have increased 
the number of employers who have been sanctioned. We have 
deported more criminal aliens this year than ever before. We 
have removed more aliens from this country than ever before. 
Our numbers at ICE are unbelievable.
    This situation in Southern Missouri, however, reflects, I 
believe, a communications issue with the sheriffs, with ICE, 
and, quite frankly, with the Missouri State Highway Patrol. The 
Missouri State Highway Patrol have a 287(g) agreement. They 
have the authority, absent an underlying State or local 
violation, to go pick up these people, as does ICE. So somehow 
we have to get those sheriffs used to either asking the police 
or ICE to go out to get these individuals.
    This does not preclude an I-9 audit of the employers who 
are involved. And I have spoken with the Assistant Secretary of 
ICE. He is in touch with the resident agent in charge in St. 
Louis, and they are not only willing to brief you, but to 
really get into Southern Missouri and see what is going on.
    Senator McCaskill. I think Senator Engler, who is the State 
Senator from that area, deserves to be in on this conversation. 
I think that clearly there needs to be a better line of 
communication between the Missouri State Highway Patrol, the 
ICE office that was called, and the local sheriffs in Missouri. 
And it seems to me that is something we could get fixed. If the 
Missouri State Highway Patrol had the authority to come out 
there and get them----
    Secretary Napolitano. They do.
    Senator McCaskill [continuing]. And I guess if they were 
not criminals, then what would they do with them? Hold them for 
a while, then let them go?
    Secretary Napolitano. Well, no. They have the authority to 
hold them so that we can remove them from the country.
    Senator McCaskill. And I guess the other thing is that when 
those things happen, I would love to work with your folks in 
St. Louis because what I think would be important for the 
community to see is that something is going to happen 
immediately in terms of investigation of the employer--that 
kind of accountability, even if it is just saying we are 
sending somebody out to look at their employment records. But 
there seems to be a disconnect in terms of information being 
received on the ground and what you want the policies to be.
    Secretary Napolitano. Well, that occasionally happens, and 
when it does happen, I think it is fair to have it brought to 
our attention so we can fix it, and we will.
    Senator McCaskill. Good. One of my favorite curmudgeons on 
television is Jack Cafferty. He is usually cranky----
    Secretary Napolitano. Yes, I have noticed that.
    Senator McCaskill. And almost always funny.
    Secretary Napolitano. I have not noticed that.
    Senator McCaskill. Well, I think he is funny. [Laughter.]
    Senator McCaskill. You probably do not think he is funny 
after yesterday, but when the television is on in the 
background, my ears perk up when Cafferty comes on because he 
usually always makes me laugh or smile when he is making fun of 
the incompetence of our government in many different ways. And 
yesterday he did a piece that caught my ear because I knew this 
hearing was coming up.
    You have asked for a lot of money for more scanners in this 
budget.
    Secretary Napolitano. Are you talking about the AIT 
machines? Which ones are you talking about?
    Senator McCaskill. The Whole Body Imaging machines.
    Secretary Napolitano. Yes, well, that is the same thing.
    Senator McCaskill. AIT, yes, 500 more. You have requested 
an additional $214 million on top of the request for 300 
machines that you had before. Obviously, we had a bunch of them 
in the stimulus act.
    Secretary Napolitano. Indeed.
    Senator McCaskill. And, obviously, they are not out there 
yet.
    Secretary Napolitano. There is where the facts would be 
helpful for you to have.
    Senator McCaskill. Once again, I am ready to be informed. 
And I will call Jack Cafferty.
    Secretary Napolitano. Well, here is what--how do I say 
this? Congress correctly put money in the stimulus act for AIT 
machines. They are the next wave of aviation security at our 
domestic airports. We want to deploy them even more quickly 
this year than we previously had planned. We have adjusted our 
plans in light of what we have learned. Also, the technology 
keeps improving.
    We had to go from 0 to 60 in a very short time, design the 
Request for Proposal and competitively bid, which is, I think, 
a better way to do government than sole-source contracting. We 
went from 0 to 60 in months, and those machines are now built. 
We also had to work at the same time with airports to design 
how they would be reconfigured to take the machines because 
they do not occupy the same amount of space as a magnetometer. 
You need the space for the machine, and you need the space for 
where the reviewers are going to be. So there is construction 
work that is associated with putting an AIT machine into 
airports.
    Those machines are moving out now. We can give you the 
delivery schedule. You will have gone with that Recovery Act 
money from almost nothing to hundreds of machines that are out 
and are going out as we speak.
    The contracts are written such that as the technology 
improves, as the algorithms for detecting anomalies improve--
and they will now because there is a worldwide market for these 
things--the contract requires that the vendor give us all of 
those improvements and that these machines be designed to be 
able to have those new improvements put in so that we do not 
have to continually come back and ask for new hardware to go 
with the software that we have.
    I think from a government perspective, making sure it was 
competitively bid, good standards, working with where it has to 
go in, and all the rest, this is actually, I would say, one of 
the fastest projects I have ever seen at such a massive scale. 
So I would disagree with any characterization that there was an 
inefficiency here.
    Senator McCaskill. And with that background, it does seem 
more reasonable, although to the average American, a year and a 
half----
    Secretary Napolitano. It was not a year and a half.
    Senator McCaskill. Well, if they do not get out until June, 
I was under----
    Secretary Napolitano. No, they are starting now. But they 
are not all going out simultaneously. I mean, there is a 
schedule. And part of that is the airports have to be ready to 
receive them.
    Senator McCaskill. Well, do we have the kind of airports 
ready to receive 300 that you have announced procurement of and 
another 200-some that you are asking for--500 more? So we are 
talking about 800 more in the pipeline.
    Secretary Napolitano. Right.
    Senator McCaskill. Are they going to be able to get out 
more quickly?
    Secretary Napolitano. Yes.
    Senator McCaskill. And are airports----
    Secretary Napolitano. Part of it is, again, Senator, you 
are going from 0 to 60, but once you have done that work--in 
fact, I met with the Airport Executives Association just this 
past week. That preparatory work either has happened or is 
underway. They know it is coming. But this thing all had to be 
knit together in an accelerated period of time. It is an 
important security project. It was an important job project.
    Senator McCaskill. Well, I appreciate the explanation, and 
my hope is that when we check back in on this--if we get all of 
these machines in this budget and the ones we got last year--
they are moving out as quickly as they are purchased.
    Secretary Napolitano. Senator, we would be happy, again, to 
provide you with a schedule or to brief you or your staff at 
your desire on what the plan is.
    Senator McCaskill. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator McCaskill.
    You will be happy to hear, as the former Governor of 
Arizona, that I have been asked not to adjourn the meeting 
because the senior Senator from Arizona is returning.
    Secretary Napolitano. That is great. [Laughter.]
    I am honestly not very mobile, so I am kind of here.
    Senator Collins. I do not think that was a credible answer.
    Chairman Lieberman. We will wait just a minute because I 
have been told Senator McCain is outside in the hallway.
    Maybe I can fill the time briefly by asking you about the 
cuts in the cybersecurity budget. I am particularly interested 
in and there was some mention of the Einstein program, the 
system of network sensors to protect the dot.gov domain. It 
looks like there is some decrease in funding for Einstein. Is 
that correct? If you know now. If not, obviously you can tell 
us.
    Secretary Napolitano. Mr. Chairman, we are moving ahead 
with Einstein and its successive iterations. Let me, if I may, 
again suggest that it might be an ideal time to do a classified 
briefing for the Committee on all of the cyber efforts.
    Chairman Lieberman. Good. That is very important.
    Secretary Napolitano. That might put it in context.
    Chairman Lieberman. Particularly as we work on 
cybersecurity legislation, so we will definitely do that.
    Incidentally, for the record, I am going to give you a 
question which will bring both you and Senator McCain back 
home. I actually met a man recently who has a business in 
Nogales, Arizona, and he complained--and I bet you this will 
sound familiar--about the time it takes people to come across 
the border and the way in which it is affecting his business. 
So I am worried about the cuts in CBP that may affect that. I 
will submit that question to you for an answer for the 
record.\1\
---------------------------------------------------------------------------
    \1\ The response from Secretary Napolitano appears in the Appendix 
on page 84.
---------------------------------------------------------------------------
    With that, I yield to Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. I thank you, Mr. Chairman and Senator 
Collins. Thank you for your indulgence. Thank you, Secretary 
Napolitano. It is great to see you again. I know that you have 
been here a long time already. I apologize for the delays.
    For the benefit of the Committee and for the record, 
describe to us, as briefly as possible, the incredible crisis 
that exists in Mexico and on the border, the struggle we are in 
with the drug cartels, and the threat that a takeover of 
Mexico, or at least of certain areas in Mexico, by the drug 
cartels poses to the government of Mexico as well as to the 
national security of the United States of America. And, by the 
way, I know you are very familiar with this issue.
    Secretary Napolitano. Very, and I was just in Mexico City 
again last week, and I had a very good meeting with the 
president there, as well as the Minister of Interior and the 
National Security Adviser in Mexico.
    In my view, this is an urgent security matter. There have 
been some significant successes over the past years. There is 
significant work to be done. I think it is a fair assessment to 
say that the rule of law is missing right now in Ciudad Juarez 
and the state of Chihuahua. The Mexican Federales are inputting 
2,700 more Federal police there. That may not be enough.
    We are using every tool we have at our disposal to work 
with the Mexican government across the border, but particularly 
in that area, and then in the Sonora, Arizona, area, which 
continues to be the lead corridor for trafficking.
    These cartels are big; they are organized. They have 
fingers that reach into hundreds of American communities. And 
there needs to be a sense of urgency about this, if for no 
other reason than because the presidency of Mexico will expire 
in another year and a half, and also because, quite frankly, 
people are dying.
    But when you have that situation and you have these 
cartels, it requires a joint effort. By the way, Senator, I 
might say that it is not just the Department of Homeland 
Security in the Federal Government that is engaged now. There 
are other departments engaged.
    Senator McCain. So if the drug cartels succeed, then it 
would be just a matter of time before the violence spilled over 
onto our side of the border, not to mention the free, basically 
free, access they would have to bring drugs, as well as humans, 
into our country.
    Secretary Napolitano. We have not seen spillover violence 
in that sense yet. It is a risk. The ability to traffic in 
drugs causes its own damage to lives in the United States. Our 
ability to curtail that would be affected.
    On the human-trafficking side, it is not solely illegal 
immigrants coming to work, but the ability of people from 
countries of special interest to immigrate into Central America 
and then be ferried up to the border and over into the United 
States that is also a concern.
    Senator McCain. People could come up through our Southern 
Border from countries of special interest?
    Secretary Napolitano. Potentially, yes.
    Senator McCain. Well, I thank you, and now I would like to 
ask you about the border fence issue. I know you have already 
been asked about this, and I am not blaming you, Madam 
Secretary, because I know this problem has been with us for 
some years. But this border fence issue has been a waste of 
billions of dollars. One huge effort failed several years ago, 
and now apparently this one has as well.
    I asked the Chairman of this Committee if we could have a 
hearing about the border fence and the waste of billions of 
dollars in what appears to be an abject failure.
    I quote from a news article from the Associated Press: ``An 
ambitious $6.7 billion government project to secure nearly the 
entire Mexican border with a `virtual fence' of cameras, ground 
sensors, and radar is in jeopardy after a string of technical 
glitches and delays.''
    I know you have been asked about that, but maybe you could 
talk to us a little more about it.
    Secretary Napolitano. I think we are talking specifically 
about SBInet, and what I have shared with the Committee is that 
the concept--we can debate the concept as originally designed, 
but the plain fact of the matter is that the major milestones 
embodied in that concept have not been met. Dates have not been 
satisfied. We will finish the first part of it because it is 
too far along to stop, and we should finish it.
    But what I have done, Senator, is say, look before we say 
we are going to do this along the entire border plus the 
Northern Border, we need to re-evaluate and see if there is 
other, better, smaller, more mobile, easier-to-maintain, 
easier-to-operate technologies that will pair with our actual 
boots on the ground in a more effective way to secure that 
border between the ports of entry.
    Senator McCain. Is this not the second failure of a virtual 
fence over the past 10 years, I think?
    Secretary Napolitano. I do not know what you are thinking 
of as the first virtual fence.
    Senator McCain. A few years ago we had a contract, and they 
just were not able to succeed. We will go into that more, I 
think, in hearings.
    Secretary Napolitano. OK.
    Senator McCain. Now, I read that illegal immigration into 
Arizona and across the border has been reduced, right?
    Secretary Napolitano. The numbers of apprehensions are 
down, yes.
    Senator McCain. And you attribute that to, one, the 
economy; and two, better enforcement. And what do you see might 
happen when the economy recovers?
    Secretary Napolitano. I think we have to be thinking ahead 
when our economy recovers that we could see another major wave 
of illegal immigration, and we still want to drive those 
numbers down. So we are working in preparation. That is why not 
just sticking with the old technology but looking at other, 
better things to do needs to be done now. That is why improving 
the ports of entry and how we actually manage the ports of 
entry needs to be done now. That is why increasing work-site 
enforcement using I-9 audits, among other techniques, to cut 
down on that demand issue needs to be done now, and that is 
what we are doing.
    Senator McCain. Thank you. I would point out that only 53 
miles of the fence is complete, and the contract was for up to 
2,000 miles of fencing.
    Secretary Napolitano. Yes.
    Senator McCain. Mr. Chairman, again, 53 miles complete. The 
contract was for 2,000 miles, and we have spent I do not know 
how many billions. I guess we will find out.
    Secretary Napolitano. Mr. Chairman, you have two Arizonans 
who are joined in their frustration.
    Chairman Lieberman. Well, this is a welcome moment of 
bipartisanship here. [Laughter.]
    Senator McCain. I thank you, Madam Secretary, and it is 
good to have you before the Committee again. Thank you.
    Secretary Napolitano. Thank you.
    Chairman Lieberman. Thanks, Senator McCain. We got the 
request from you yesterday about the hearing, and the staff is 
evaluating it, but I think it is a good idea. We have done a 
couple in the past, but we have not done one for a while. So 
our staffs will work together on that.
    Secretary Napolitano, thanks very much. It has been a good 
exchange. The bottom line, as I said at the beginning, I think 
this budget continues the Department moving forward. Obviously, 
we have some areas we are concerned about. We will continue to 
work on that with you.
    As we have done in the past, we will probably end up making 
some recommendations on behalf of the Committee to the 
Appropriations Committee on the budget and hope that will be 
helpful to your leadership of the Department.
    The record of this hearing will stay open for 15 days for 
any additional statements or questions. Do you have anything to 
say in conclusion in your defense?
    Secretary Napolitano. Happy birthday, Mr. Chairman. 
[Laughter.]
    Senator Collins. Very smart.
    Senator McCain. A wise comment.
    Chairman Lieberman. Thank you very much. The hearing is 
adjourned.
    [Whereupon, at 12:36 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6843.001

[GRAPHIC] [TIFF OMITTED] T6843.002

[GRAPHIC] [TIFF OMITTED] T6843.003

[GRAPHIC] [TIFF OMITTED] T6843.004

[GRAPHIC] [TIFF OMITTED] T6843.005

[GRAPHIC] [TIFF OMITTED] T6843.006

[GRAPHIC] [TIFF OMITTED] T6843.007

[GRAPHIC] [TIFF OMITTED] T6843.008

[GRAPHIC] [TIFF OMITTED] T6843.009

[GRAPHIC] [TIFF OMITTED] T6843.010

[GRAPHIC] [TIFF OMITTED] T6843.011

[GRAPHIC] [TIFF OMITTED] T6843.012

[GRAPHIC] [TIFF OMITTED] T6843.013

[GRAPHIC] [TIFF OMITTED] T6843.014

[GRAPHIC] [TIFF OMITTED] T6843.015

[GRAPHIC] [TIFF OMITTED] T6843.016

[GRAPHIC] [TIFF OMITTED] T6843.017

[GRAPHIC] [TIFF OMITTED] T6843.018

[GRAPHIC] [TIFF OMITTED] T6843.019

[GRAPHIC] [TIFF OMITTED] T6843.020

[GRAPHIC] [TIFF OMITTED] T6843.021

[GRAPHIC] [TIFF OMITTED] T6843.022

[GRAPHIC] [TIFF OMITTED] T6843.023

[GRAPHIC] [TIFF OMITTED] T6843.024

[GRAPHIC] [TIFF OMITTED] T6843.025

[GRAPHIC] [TIFF OMITTED] T6843.026

[GRAPHIC] [TIFF OMITTED] T6843.027

[GRAPHIC] [TIFF OMITTED] T6843.028

[GRAPHIC] [TIFF OMITTED] T6843.029

[GRAPHIC] [TIFF OMITTED] T6843.030

[GRAPHIC] [TIFF OMITTED] T6843.031

[GRAPHIC] [TIFF OMITTED] T6843.032

[GRAPHIC] [TIFF OMITTED] T6843.033

[GRAPHIC] [TIFF OMITTED] T6843.034

[GRAPHIC] [TIFF OMITTED] T6843.035

[GRAPHIC] [TIFF OMITTED] T6843.036

[GRAPHIC] [TIFF OMITTED] T6843.037

[GRAPHIC] [TIFF OMITTED] T6843.038

[GRAPHIC] [TIFF OMITTED] T6843.039

[GRAPHIC] [TIFF OMITTED] T6843.040

[GRAPHIC] [TIFF OMITTED] T6843.041

[GRAPHIC] [TIFF OMITTED] T6843.042

[GRAPHIC] [TIFF OMITTED] T6843.043

[GRAPHIC] [TIFF OMITTED] T6843.044

[GRAPHIC] [TIFF OMITTED] T6843.045

[GRAPHIC] [TIFF OMITTED] T6843.046

[GRAPHIC] [TIFF OMITTED] T6843.047

[GRAPHIC] [TIFF OMITTED] T6843.048

[GRAPHIC] [TIFF OMITTED] T6843.049

[GRAPHIC] [TIFF OMITTED] T6843.050

[GRAPHIC] [TIFF OMITTED] T6843.051

[GRAPHIC] [TIFF OMITTED] T6843.052

[GRAPHIC] [TIFF OMITTED] T6843.053

[GRAPHIC] [TIFF OMITTED] T6843.054

[GRAPHIC] [TIFF OMITTED] T6843.055

[GRAPHIC] [TIFF OMITTED] T6843.056

[GRAPHIC] [TIFF OMITTED] T6843.057

[GRAPHIC] [TIFF OMITTED] T6843.058

[GRAPHIC] [TIFF OMITTED] T6843.059

[GRAPHIC] [TIFF OMITTED] T6843.060

[GRAPHIC] [TIFF OMITTED] T6843.061

[GRAPHIC] [TIFF OMITTED] T6843.062

[GRAPHIC] [TIFF OMITTED] T6843.063

[GRAPHIC] [TIFF OMITTED] T6843.064

[GRAPHIC] [TIFF OMITTED] T6843.065

[GRAPHIC] [TIFF OMITTED] T6843.066

[GRAPHIC] [TIFF OMITTED] T6843.067

[GRAPHIC] [TIFF OMITTED] T6843.068

[GRAPHIC] [TIFF OMITTED] T6843.069

[GRAPHIC] [TIFF OMITTED] T6843.070

[GRAPHIC] [TIFF OMITTED] T6843.071

[GRAPHIC] [TIFF OMITTED] T6843.072

[GRAPHIC] [TIFF OMITTED] T6843.073

[GRAPHIC] [TIFF OMITTED] T6843.074

[GRAPHIC] [TIFF OMITTED] T6843.075

[GRAPHIC] [TIFF OMITTED] T6843.076

[GRAPHIC] [TIFF OMITTED] T6843.077

[GRAPHIC] [TIFF OMITTED] T6843.078

[GRAPHIC] [TIFF OMITTED] T6843.079

[GRAPHIC] [TIFF OMITTED] T6843.080

[GRAPHIC] [TIFF OMITTED] T6843.081

[GRAPHIC] [TIFF OMITTED] T6843.082

[GRAPHIC] [TIFF OMITTED] T6843.083

[GRAPHIC] [TIFF OMITTED] T6843.084

[GRAPHIC] [TIFF OMITTED] T6843.085

[GRAPHIC] [TIFF OMITTED] T6843.086

[GRAPHIC] [TIFF OMITTED] T6843.087

[GRAPHIC] [TIFF OMITTED] T6843.088

[GRAPHIC] [TIFF OMITTED] T6843.089

[GRAPHIC] [TIFF OMITTED] T6843.090

[GRAPHIC] [TIFF OMITTED] T6843.091

[GRAPHIC] [TIFF OMITTED] T6843.092

[GRAPHIC] [TIFF OMITTED] T6843.093

[GRAPHIC] [TIFF OMITTED] T6843.094

[GRAPHIC] [TIFF OMITTED] T6843.095

[GRAPHIC] [TIFF OMITTED] T6843.096

[GRAPHIC] [TIFF OMITTED] T6843.097

[GRAPHIC] [TIFF OMITTED] T6843.098

[GRAPHIC] [TIFF OMITTED] T6843.099

[GRAPHIC] [TIFF OMITTED] T6843.100

[GRAPHIC] [TIFF OMITTED] T6843.101

[GRAPHIC] [TIFF OMITTED] T6843.102

[GRAPHIC] [TIFF OMITTED] T6843.103

[GRAPHIC] [TIFF OMITTED] T6843.104

[GRAPHIC] [TIFF OMITTED] T6843.105

[GRAPHIC] [TIFF OMITTED] T6843.106

[GRAPHIC] [TIFF OMITTED] T6843.107

[GRAPHIC] [TIFF OMITTED] T6843.108

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
